Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Health Care Financing Administration
Controls Are Not Preventing Duplicate
              Payments




                   JUNE GIBBS BROWN
                    Inspector General

                        MAY 2000
                      OEI-04-97-00460
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

       Rodney Holliman, Lead Analyst

       Tricia Davis, Program Specialist

       Graham Rawsthorn, Team Leader

       Brian Ritchie, Program Analyst

       Barbara Tedesco, Mathematical Statistician



To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports
are also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
June Gibbs Brown

Inspector General


Health Care Financing Administration Controls are not Preventing Duplicate Payments, 

OEI-04-97-00460


Nancy-Ann Min DeParle

Administrator

Health Care Financing Administration



The Health Care Financing Administration (HCFA) and contractor staff expressed concerns

that regional home health intermediaries and durable medical equipment regional carriers

were being inappropriately billed twice for medical equipment and supplies. At their

request, we initiated an evaluation to quantify the extent of the duplicate payments.


We found vulnerabilities that allowed for duplicate payments to be made for supplies and

equipment provided to Medicare home health beneficiaries. First, intermediaries do not

know what supplies they are paying for because the coding system allows providers to

submit claims for a wide variety of supplies using non-descriptive codes. Second, only

about 3 percent of home health providers are subjected to complete audits that would

potentially reconcile supply claims. Finally, HCFA Common Working File (CWF) edits do

not check for duplication of payments on most equipment and supplies.


The actual inappropriate payments, slightly over $530,000 in 1997, were relatively small

compared to other payment error vulnerabilities in the Medicare program. Of this,

$379,510 was for supplies and $150,722 was for equipment.


The vulnerabilities for supplies may be eliminated when Medicare implements the

prospective payment system for home health, scheduled for October 2000. At that time,

payment for supplies will be included in the prospective payment rate. However, the

vulnerabilities for supplies will remain until the prospective payment system goes into 

effect. 


The vulnerabilities for equipment will continue indefinitely, unless steps are taken to

eliminate them. We suggest that HCFA examine its payment, coding, and editing practices

to enable carriers and home health intermediaries to avoid duplicate equipment payments. 

For example, HCFA could require all medical equipment bills be submitted to the durable

medical equipment regional carriers using the HCFA common procedure coding system. 

Another potential solution would be to expand CWF system edits to detect duplicate

billings between both entities. The HCFA may also want to assess other potential cost

effective solutions.

Page 2

  BACKGROUND

  The HCFA has primary responsibility for protecting the Medicare Trust Fund from fraud,
  waste, and abuse. To accomplish this goal, HCFA contracts with private insurance companies
  to process Medicare claims and conduct program integrity functions.

  Claims Jurisdiction and Responsibility

  The HCFA contracts with five regional home health intermediaries to process claims for home
  health care. Which intermediary processes home health claims generally depends on the State
  in which the home health agency is located. Home health providers file claims under both Part
  A and Part B.

  The HCFA contracts with four durable medical equipment regional carriers to process claims
  for durable medical equipment, prosthetics, orthotics and supplies. Which carrier processes
  equipment and supply claims is governed by a beneficiary’s place of residence. Suppliers are
  required to file claims under Part B.

  The HCFA’s claims submission requirements differ for submitting medical equipment and
  supply claims to intermediaries and carriers. Figure 1 highlights such similarities and
  differences.

                                           FIGURE 1

                                Claims Submission Requirements 


                Part A                                                      Part B

               Providers                                                   Suppliers

                                           Supplies

               Revenue codes                                           HCPCS codes
                  required                                               required



          Intermediaries                                                  Carriers

         Revenue and HCPCS                                               HCPCS codes
               codes required                                         required



                                         Equipment
Page 3

  Medical Equipment Claims

  The HCFA requires home health providers to use both HCFA Common Procedure Coding
  System (HCPCS) codes and revenue codes when billing intermediaries for medical equipment.
  The HCPCS codes generally relate to specific items while revenue codes are used to group
  supply items. Providers are reimbursed for medical equipment according to the HCPCS fee
  schedule.

  The HCFA also requires suppliers to use HCPCS codes when billing carriers for medical
  equipment. The codes are itemized and reimbursed according to the HCPCS fee schedule.

  Medical equipment processed through the intermediaries share the same HCPCS codes as
  medical equipment processed through the carriers.

  Supply Claims

  The HCFA guidelines require home health providers to use revenue codes to bill intermediaries
  for medical supplies. Suppliers, on the other hand, are required to use HCPCS codes when
  billing carriers for supplies.

  Program Safeguards

  The HCFA requires intermediaries and carriers to conduct focused medical reviews on a
  certain percentage of processed claims. Present practices limit the reviews to providers and
  suppliers with aberrant billing histories. Intermediaries, when reviewing aberrant providers,
  request detailed descriptions and medical justifications for billed services and supplies.

  Intermediary and carrier claims are processed through a CWF. The CWF is used to obtain,
  maintain, and distribute beneficiary specific Medicare data. The CWF uses a Part A/B
  crossover edit that alerts intermediaries and carriers to potential duplicate payment situations.
  The CWF’s system edit for potential duplicate payments is triggered when dates of service and
  procedure codes are the same for intermediary and carrier claims. Questionable claims are
  then manually reviewed to ensure appropriate payment.

  Prospective Payment System

  The Balanced Budget Act of 1997 requires HCFA to implement a prospective payment system
  for home health agencies. The new payment system is schedule for October 1, 2000. The
  statute requires that payment for most items and services be made to the agency that
  established a plan of care. Medical equipment is not included in the prospective payment
  system.
Page 4

  METHODOLOGY

  We conducted a national inspection of home health providers’ and medical equipment
  suppliers’ equipment and supply claims. We analyzed equipment and supply billings for
  Calendar Year 1997.

  We interviewed HCFA central office and regional staff to determine what controls were in
  place to prevent duplicate payments. Additionally, we visited one intermediary and one carrier
  to discuss billing and payment processes and vulnerabilities. We also reviewed HCFA policies,
  carrier manuals, and the proposed home health prospective payment system regulation.
  Finally, we reviewed prior Office of Inspector General and General Accounting Office (GAO)
  reports and interviewed officials who prepared them.

  We used a 5 percent sample of the 1997 National Claims History file and identified 50,946
  Medicare beneficiaries with medical equipment or supply claims processed through
  intermediaries and carriers. These beneficiaries had over $26 million in intermediary charges
  for equipment and supplies. We randomly sampled 500 beneficiaries, 50 with equipment
  claims and 450 with supply claims.

  We compiled applicable equipment and supply claims data for each sampled beneficiary. To
  quantify duplicate billings, intermediary and carrier medical review staff reviewed and analyzed
  our data. Attachment A provides further details on our methodology.

  QUESTIONABLE PAYMENTS

  We identified $5,789 as possible duplicate payments for equipment and supplies for 33
  beneficiaries in our sample. The amount of questionable payments totaled $2,326 for
  equipment and $3,463 for supplies. The following examples illustrate such questionable
  payments.

  <	     One beneficiary had a wheelchair billed to a carrier and a similar wheelchair billed to an
         intermediary for two overlapping months. The rental charges for the second
         wheelchair totaled about $240.
  <	     Both a carrier and intermediary paid for surgical dressings for the same beneficiary for
         the same month. The questionable payments totaled $480.
  <	     In September 1997, an intermediary processed diabetic supply claims for a beneficiary.
         During the same month, a carrier reimbursed a supplier $71 for the same diabetic
         supplies.
  <	     A home health provider billed an intermediary for various equipment including a leg
         rest, walker, and commode in July 1997. A carrier paid $278 for the same equipment
         during the same month and for the same beneficiary.

  We projected the $5,789 in questionable payments made to suppliers for our sampled
  beneficiaries to the Medicare population that had both Part A and Part B claims as described
Page 5

  in our methodology. We estimated that the amount of payments made in error to the suppliers
  was approximately $530,000 (+/- $57, 200 at the 95% confidence level).

  VULNERABILITIES

  In a 1995 report,1 GAO recommended controls to prevent duplicate payments by
  intermediaries and carriers for supplies. The HCFA did not implement the recommendations
  because it believed a proposed Medicare Transaction System would alleviate the identified
  problems. However, the new system was not implemented. Therefore, HCFA did not tighten
  controls to prevent duplicate payments for equipment and supplies. Thus, HCFA’s payment
  process for equipment and supplies is still vulnerable to duplicate billing.

  Cost Reports

  Intermediaries pay supply claims without knowing specifically what they are paying for. To
  illustrate, HCFA policies allow home health providers to bill for a wide variety of supplies
  under revenue codes. The revenue codes do not adequately describe the type and amount of
  supplies billed for under each code. For example, one of the beneficiary claims that we
  reviewed had $3399 billed under revenue code 270 for medical supplies. The bill did not
  provide any other details that would allow the intermediary to determine the appropriateness of
  the charges. We requested that the provider submit supporting documentation and discovered
  that the intermediary had paid for such items as 4x4 gauze, tape, ostomy pouches, sterile Q-
  tips, and gel wipes. The supplies were all appropriate in this example.

  Furthermore, according to HCFA and intermediary staff, intermediaries would obtain and
  analyze supporting documentation for supplies only if providers were subjected to a complete
  audit. Intermediaries annually conduct complete audits on about 3 percent of home health
  providers.

  Common Working File

  All claims processed through intermediaries and carriers are also processed through a CWF.
  The HCFA uses the CWF to compare all claims with historical beneficiary data to verify
  eligibility for benefits and payment. The HCFA also uses the CWF to conduct many types of
  automated edits to determine if payment for claims should be approved or rejected. The CWF
  edits, however, do not prevent duplicate payments for equipment and supplies billed to
  intermediaries and carriers.

  Supply claims processed through intermediaries and carriers do not share a common identifier.
  Therefore, identifying potential duplicate situations for supplies is very difficult. Although the
  CWF edits do not rely on an exact code match, the time period that the edit covers is too
  restrictive to identify duplicate payments. For example, the CWF edit would only identify a


     1
         Medicare: Excessive Payments for Medical Supplies Continue Despite Improvements, GAO/HEHS-95-171
Page 6

  potential duplicate payment if a carrier was billed for supplies for a specific date of service and
  an intermediary received a claim for an appropriate supply revenue code for the exact same
  date of service and same Medicare beneficiary.

  Claims for equipment, on the other hand, use HCPCS codes whether billed to intermediaries or
  carriers. Even with this common identifier, the time window used for CWF edits, as mentioned
  above, is too restrictive. Therefore, the CWF edits do not adequately prevent duplicate
  payments for equipment.

  Finally, the CWF does not have duplicate payment edits for the majority of the equipment and
  supplies processed by intermediaries and carriers.

  CONCLUSION AND RECOMMENDATIONS

  The HCFA and contractor staff raised concerns about duplicate payments for equipment and
  supplies under the Medicare home health program. As described in this report, we found
  vulnerabilities that allowed this to happen. However, the inappropriate payments were small
  relative to other vulnerabilities in the Medicare program. Furthermore, the prospective
  payment system for home health, when implemented, may eliminate the problem for medical
  supplies which will be included in the prospective payment rate. However, the vulnerabilities
  for supplies will remain until the prospective payment system goes into effect. Medical
  equipment remains vulnerable as it will not be included in the prospective payment rate.

  We suggest that HCFA examine its payment, coding, and editing practices to enable carriers
  and home health intermediaries to avoid duplicate equipment payments. For example, HCFA
  could require all medical equipment bills be submitted to the durable medical equipment
  regional carriers using HCPCS codes. Another potential solution would be to expand CWF
  system edits to detect duplicate billings between both entities. The HCFA may also want to
  assess other potential cost effective solutions.

  I hope that you find this information responsive to HCFA’s request. Please do not hesitate to
  call me or George Grob, Deputy Inspector General for Evaluation and Inspections, or have
  your staff contact Stuart Wright at (410) 786-3144 with any comments or questions.

  COMMENTS

  The HCFA concurred with our findings and recommendations. Specifically, that payment,
  coding and editing practices be modified to enable carriers and home health intermediaries
  avoid duplicate payments. The full text of their comments is attached in appendix B.

  Attachments
                                                                                            Attachment A

                            Detailed Inspection Methodology

We used a 5 percent sample of the National Claims History file and identified 77,842 Medicare
beneficiaries for whom providers had billed intermediaries for equipment and supplies totaling
$33.8 million. Using the same file, we determined that 50,946 of the 77,842 beneficiaries also
had equipment or supply claims billed to carriers. These beneficiaries had over $26 million in
intermediary charges for equipment and supplies.

Hence, we started with 50,946 Medicare beneficiaries who could have had questionable
equipment and supply claims made on their behalf to both intermediaries and carriers. Out of
the 50,946 beneficiaries, we identified 162 who had equipment claims and 50,784 who had
supply claims at intermediaries and carriers in calendar year 1997.

Equipment

We randomly sampled 50 of the 162 beneficiaries with equipment claims. Using the National
Claims History file, we compiled applicable equipment claims submitted to intermediaries and
carriers for Calendar Year 1997. Equipment claims submitted to intermediaries or carriers
share a common identifier (HCPCS codes). Intermediary and carrier medical review staff
reviewed our data to identify questionable payment situations.

Supplies

We pulled a stratified random sample of 450 of the 50,784 beneficiaries with supply claims.
Supply claims submitted to intermediaries and carriers do not share a common identifier.
Carriers use HCPCS codes that identify individual supply items while intermediaries use
revenue codes to group many supply items. Therefore, sampling beneficiaries with supply
claims required several steps.

First, intermediary and carrier medical review staff compiled a listing of HCPCS codes for
supplies that were billable to carriers and would also “likely” be billed to intermediaries using
supply revenue codes.

Next, we reviewed claims for the 50,784 beneficiaries and identified 11,994 beneficiaries who
had one or more of the “likely” HCPCS codes paid in Calendar Year 1997. The remaining
308,790 beneficiaries did not have any of the “likely” codes paid in 1997. Therefore, we
grouped them as “unlikely” supply matches. That is, they had supplies billed at both
intermediaries and carriers during calendar year 1997, but the supplies billed to a carrier were
not considered the type of supplies that should be billed to an intermediary. However, since
we could not determine what specific supplies were billed to the intermediaries because of their
use of non-descriptive revenue codes, we did not exclude the “unlikely” population from our
sample.


                                                 1

                                                                                          Attachment A


We stratified the 11,994 beneficiaries that we considered “likely” based on dollar ranges of
allowed charges. Table 1 illustrates our sample.



                                       TABLE 1
                                  SAMPLE FOR SUPPLIES
                            Strata                          Population         Sample
      SUPPLIES - UNLIKELY                                      38,790             50


      SUPPLIES - LIKELY
         likely matches < $100                                  5,340             50
         likely matches from $100 < $500                        3,575             50
         likely matches from $500 < $3,000                      2,580             100
         likely matches equal to or greater than $3,000          499              200
              Sub Total of Supplies - Likely                   11,994             400


      TOTAL                                                    50,784             450

Next, using the National Claims History data, we identified the intermediary that processed
each beneficiary’s home health claims. Each intermediary requested the appropriate home
health provider to submit the supporting documentation for the 450 beneficiaries sampled from
our supply strata. We obtained medical records and lists of billed items, including supply
items, from home health providers for 384 of the 450 beneficiaries. Home health providers did
not provide requested documentation for the remaining 66 beneficiaries.

Intermediary and carrier nurses reviewed the lists of billed items. Based on the line item
descriptions, the nurses identified supply items that were billable to the carriers and assigned
them HCPCS codes. Finally, armed with compilations of supply items billed to intermediaries
and carriers for the 384 beneficiaries, the nurses identified questionable payments.




                                                2

                                                                                        Attachment A


We did not reconcile whether the home health provider or the supplier billed appropriately for
each questionable payment. Instead, we assumed the carrier payment was the questionable
payment. Therefore, we calculated the questionable payments for supplies based on the actual
carrier allowed charges.


Confidence Intervals

  Sample Size      Questionable          +/-            Lower 95%              Upper 95%
                    Payments                         Confidence Interval    Confidence Interval
      500            $530,232          $57,200            $473,032               $587,432




                                               3

     Attachment B




4

     Attachment B




5

